Supreme Court, U.S.
FILED

WAIVER

DEC 0 6 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-615

City of New York, et al.

Ward

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

The Law Offices of Stuart A. Klein, Esq., Stuart A. Klein, Esq., and
Peter E. Sayer, Esq. (-Ne.

wife -two rokftict I N Dis-riatcc opoorc cAPRON
etir Nrc .41r22

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar
Signature
Date

Christopher M. Slowik
E Mr. 0 Ms. 0 Mrs. 0 Miss
Klein
Slowik
PLLC
Firm

(Type or print) Name

Address

90 Broad Street, Suite 602

City & state
Phone

New York, New York

212-564-7560

Zip
Email

10004

cslowik@buildinglawnyc.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Elain Ward, Aislinn S. McGuire, Diane Lawless, and Don R. Sampen

RECEN
DEC 12 2019
ER
OFFICE OF COURT U.S.
SUPREME

